SUPREME COURT

FILED
OCT % 1.2020

Court of Appeal, First Appellate District, Division Four - No. A156017
Jorge Navarrete Clerk
S264030

IN THE SUPREME COURT OF CALIFORNIA
En Banc

THE PEOPLE, Plaintiff and Respondent,
v.
JOSHUA HARRELL, Defendant and Appellant.
The petitions for review are denied.

CANTI l-SAKAU YE
ChiefJustice

2)

Deputy

Filed 8/10/20

CERTIFIED FOR PARTIAL PUBLICATION*
IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION FOUR
THE PEOPLE,
Plaintiff and Respondent
A156017

v.

JOSHUA HARRELL,

(Solano County
Super. Ct. No. FCR336781)

Defendant and Appellant.

INTRODUCTION
A jury convicted Joshua Harrell of three felony counts of fraudulent
possession of the personal identification of another after having b een
previously convicted of this offense. (Pen. Code, § 530.5, subd. (c)(2) (section
530.5(c)(2), all statutory references are to the Penal Code). Harrell makes
three claims on appeal: (1) the judgment must be reversed because of the
erroneous denial of his motion to suppress evidence; (2) his convictions must
be reclassified as misdemeanors under section 490.2; and (3) four prior prison
term enhancements must be stricken due to an amendment to section 667.5,
subdivision (b) (section 667.5(b)).
After this court filed a nonpublished opinion accepting Harrell’s
contention that his convictions must be reclassified as misdemeanors, the
California Supreme Court granted the People’s petition for review. (.People v.
. * Pursuant to California Rules of Court, rules 8.1105(b) and 8.1110, this opinion
is certified for publication with the exception of parts I and II of the Discussion section.
i

K

Harrell (Feb. 11, 2020, No. S259968)

Cal.5th
[2020 Cal. Lexis 1112].)
The Court then decided People u. Jimenez (2020) 9 Cal.5th 53 (Jimenez) and
transferred Harrell’s case back to this court with directions to vacate

our

prior decision and reconsider the cause in light of Jimenez.
In the published portion of the present opinion, we now reject Harrell’s
contention that his convictions for felony fraudulent possession of personal
identifying information must be reclassified under section 490.2 as
misdemeanors. Unpublished portions of the opinion affirm the denial of
Harrell’s suppression motion and conclude his section 667.5(b) enhancements
must be stricken.

BACKGROUND
In March 2018, Harrell was charged by felony complaint with three
counts of violating section 530.5(c)(2). His motion to suppress evidence
pursuant to section 1538.5, arguing that he was subjected to an unlawful
detention, search, and arrest , was heard concurrently with the preliminary
hearing on June 18, 2018.
At the June 18 hearing, Fairfield Police Officer Kevin Anderson
testified that he encountered Harrell shortly before 3:00

a.m. on November
24, 2017. Anderson was patrolling a residential neighborhood when he
noticed a gold BMW parked on the street that did not have license plates,
which was a violation of the Vehicle Code. He approached the car so he could
obtain the VIN number and noticed through the windows that Harrell
was
asleep in the driver’s seat, with “a lot of miscellaneous property spread out
throughout the car.” Andeison attempted to wake Harrell by speaking
through the window, which was rolled down about five inches, and by
knocking on the window with his flashlight. When Harrell finally woke up
Anderson identified himself as police and asked Harrell to roll the window

2

down or open the door so it would be easier to talk,

Harrell did not comply

with that request or with the officer’s request to

see identification. He told
want to talk and did not want to get out of the car.
Anderson then asked for Harrell’s
name and date of birth, which Harrell
provided.
Anderson that he did not

Anderson testified that he used the information

provided by Harrell to
run a record check through Fairfield Police Dispatch and was advised that
Harrell was on Post Release Community Supervision (PRCS)
. Accordingly,
Anderson ‘removed [Harrell] from the
car to conduct a PRCS compliance
check of the vehicle.” Anderson found notebooks and paperwork on the seats
and floorboard of the car. The notebooks contained personal identify
mg
information for approximately 20 people. After completing the
car search,
Anderson read Harrell his rights and placed him under
arrest. Subsequently,
Anderson contacted several people who were referenced
in the notebooks
found in the BMW, and they reported that Harrell did
not have permission to
have their personal information.
After Anderson completed his testimony, the Peopl

e submitted
documentary evidence regarding Harrell’s nri
prior conviction for identity theft,
and the magistrate took judicial notice of the
case in which Harrell had been
placed on PRCS. The defense did not present evidence, but argued that the
People failed to carry their burden of producing independent evidence
establishing that Harrell was on PRCS

01 subject to a search condition,
Defense counsel further argued that the d
-etention was unlawful because
Harrell was not doing anything wrong and
was not obhgated to engage with
the officer even if he was on PRCS. Finally, defense counsel argued that the
search of Harrell’s phone was not justified because th
evidence regarding the scope of the PRCS

3

e People did not produce

search clause.

The magistrate denied Harrell’s suppression motion, finding: “The
initial contact was supported by reasonable suspicion. The arrest was
suppoited by probable cause. The detention was not unduly prolonged.” The
magistrate also found sufficient evidence to support the identity theft charges
and held Harrell to answer on the complaint.
In the superior court, Harrell filed a renewed motion to suppress
evidence. On August 13, 2018, the court denied Harrell’s motion, finding a
sufficient factual basis for the magistrate’s conclusions. Thereafter, the case
proceeded to trial, where the jury found Harrell guilty of three felony counts
of acquiring or keeping the personal identifying information of K.H., T.S. and
C.W. after having previously suffered a conviction for this same crime.
(§ 530.5(c)(2).) The trial court chose the upper term on count one as the base
term and ran the other two terms consecutive; found that Harrell suffered a
prior strike conviction and four prior prison terms; and sentenced him to an
aggregate term of 12 years and 8 months in prison.
DISCUSSION
I. The Denial of Harrell’s Suppression Motion Was Not E rror
Harrell contends the judgment must be reversed because illegally
seized evidence was used to secure his convictions.
Our standard of review is well established. A criminal defendant may
challenge the reasonableness of a search or seizure by making a motion to
suppress at the preliminary hearing. [Citation.] If the defendant is
unsuccessful at the preliminary hearing, he or she may raise the search and
seizure mattei before the superior court under the standards governing a
section 995 motion.” (People v. McDonald {2006) 137 Cal.App.4th 521, 528529 {McDonald).) On appeal, we too review the determination of the'
magistrate at the preliminary hearing. {Id. at p. 529.) We accept all factual

4

findings supported by substantial evidence

• Then we exercise independent

judgment to determine whether th

e search or seizure was reasonable on the
facts found by the magistrate • (Ibid.;
see also People v. Romeo (2015) 240
Cal.App.4th 931, 940.)
We begin with Harrell

s contention that his detention was unjustified.
a person if the officer has a reasonable
articulable suspicion that the detainee is or is about to be engaged in criminal
A police officer may detain

activity.” (McDonald,

supra, 137 Cal.App.4th at p. 530.) “[Wlhen there is
articulable and reasonable
suspicion that a motorist is unlicensed, that an
automobile is not registered or that either the vehicle
or an occupant is
otherwise subject to seizure for violation
of law, the vehicle may be stopped
and the driver detained in order to check his
or her driver’s license and the
vehicle’s registration.” (People v. Saunders (2006) 38 Cal.4th
1129, 1135
(Saunders).)
Accepting, for purposes of appeal, Harrell

s contention that he was
detained as soon as Officer Anderson woke him
and asked for identification,
the record shows that Officer Anderson had
a reasonable, articulable
suspicion to detain Harrell because h
e was sleeping in a car parked on a
public street that did not have license
plates. “Absence of license plates
provides reasonable
SUSplC10n that the driver ^ violating the law. Unless
there are other circumstances that dispel that suspicion, that resolve
any
ambiguities m the legal status of the vehicle
s conformance with applicable
laws, the officer
may stop the vehicle and investigate without
violating the
diiver s Fourth Amendment rights.”
(People v. Dotson (2009) 179
Cal.App.4th 1045, 1052; see also Saunders,
„
,
suPra> 38 Cal.4th at p. 1136 )
Here, the officer's initial interaction with Harrell revealed ci
- circumstances that
reinforced an objective suspicion that Harrell
was engaged in unlawful

5

activity because Harrell declined to provide identification d
lawful possession of the BMW.

emonstrating his

Harrell also disputes the magistrate’s conclusion that the vehicle
search was lawful, However, substantial evidence that Officer Anderson
knew Harrell was on PROS justifies the vehicle search. “[A]n individual who
has been released from custody under PROS is subject to search (and
detention incident thereto) so long as the officer knows the individual
PROS. PROS, like parole, involves the post-incarceration

is on

supervision of
individuals whose crimes were serious enough to result i
m a prison sentence
and thereby implicates important public safety
concerns, as well as the
state’s
overwhelming’ ” 1 interest in supervising released i
inmates.” (.People
v- D°uglas (2015) 240 Cal.App.4th 855,
865 {Douglas).)
In this case, before Officer Anderson ordered Harrell t
o get out of the
vehicle, he was accuiately informed by the police department’s dispatch
officer that Harrell was on PROS until 2020. Contrary to Harrell's lower
( (C (

court argument, the precise terms of Harrell’s PRCS release are not relevant
to our evaluation of the propriety of the search. “It is not necessary for the
officer to recite or for the People to prove the precise terms of release, £
or the
search condition is imposed by law, not by consent. As
in the case of a parole
search, an officer’s knowledge that the individual
is on PRCS is equivalent to
knowledge that he or she is subject to a search condition.”
{Douglas, supra,
240 Cal.App.4th at p. 865.)
Harrell contends that the search

executed by Anderson was
nevertheless unlawful because it was conducted to harass him. The
Legislature has explicitly stated that PRCS status does not “authorize law
enforcement officers to conduct searches for the sole purpose of harassment.”
(§ 3067, subd. (d)_) Despite the fact that the law does not require

6

particularized suspicion to conduct
a search pursuant to
a properly imposed
search condition, such
a search may be
unreasonable if it is conducted a ( too
often, or at an
unreasonable hour, or if it [is] unreasonably prolonged
or for
other reasons establishing arbitrar
7 or oPPressire conduct by the searching
officer.
(People
W998) 19 CaUth 743> 753-754 [addressing a
parole search condition].)
Here, the record
■PPr...h.d th. BMW
unlicensed vehiclp ir>

n - t, i.
§
ght to possess the
i
W3S Sleep“& and ‘hat Officer Anderson
conducted a search of the vehicle b
ecause he was informed that Harrell
on PRCS and subject to a
was
statutory search condition,
These facts constitute
objective justification fo
r the officer’ s COnduct and establish that the search
was not conducted for the
purpose of harassment.
H. The Priior Prison-Term Sentence Enhan
cements Must Be Stricken
Next, we consider Harrell’s
contention that his four one-year
enhancements must be
stricken pursuant to a
recent amendment to section
667.5(b).
When Hull's sentence was imposed, formers
ection 667.5(b) provided

that where a defendant is

convicted of a felony and
sentenced to prison, “in
consecutive to any other
sentence therefor, the court shall
impose a oneyear term for each prior
separate prison term or county jail
term imposed under
subdivision (h) of Sectio
n 1170 or when sentence- iis not
suspended for any felony
Effective January 1 , 2020,
section 667.5(b)
was amended to enhance
Punishment only for prior prison terms served “
for a
sexually violent offense
fined m subdivision (b) of Section 6600 of the
Welfare and Instituti
ons Code . . .
Here, none of Harrell’s prior prison
addition and

7

terms were for sexually violent offenses. Therefore, if he had be
under the amended statute, the court
year sentence enhancements.

en sentenced
could not have imposed the four one-

In appellate briefs filed before J

anuary 2020, Harrell argued the
amendment to s ection 667.5(b) apphed retroactively to him because it would
go into effect before the judgment in his
Estrada (1965) 63 Cal.2d 740 (Estrada).)

case became final. (Citing In Re

The People argued (erroneously)
was not ripe for review, but conceded (correctly) that once the
amendment went into effect, it would apply retroactively to defendants
whose
judgments were not yet final.
that this claim

The Estrada rule provides,

a c

when a statute mitigating punishment
becomes effective after the
commission of the prohibited act but before final
judgment the 1 esser punishment provided by the
new law should be imposed
in the absence of an
express statement to the
contrary by the Legislature.
(People v. Woods (2018) 19 Cal.App.5th
1080, 1090.) “[Fjor the purpose of
determining retroactive application of an
amendment to a criminal statute, a
judgment is not final until the time for
petitioning for a writ, of certiorari in
the United States Supreme Co

C*1 d+h

on

Ult haS PaSSed/’ (Pe°Ple v■ Vi^ra (2005) 35

1.4th 264, 306.) Thus, the judgment in this
entitled to the benefit of amended s

case is not final, and Harrell is

ection 667.5(b). The sentence
[u,<m to

Cm™.

'

^m

...... .»“»*

^

„ Theft

Harrell contends that Proposition 47 requires this
court to reclassify
as misdemeanor thefts under section 490.2.
Proposition 47 “reduced the punishment fo
r certain theft- and drug-related
offenses, making them punishable as
misdemeanors rather than felonies . To
his felony convictions

8

that end, Proposition 47 amended
including new . . . section 490.2

or added several statutory provisiions,

which provides that ‘obtaining
any property
by theft’ is petty theft and is to be punished
as a misdemeanor if the value of
the property taken is $950 or less.” (People v. Page (2017) 3 Cal.5th 1175
1179.)
Here, Harrell’s felony convictions were for

violating section 530.5(c)(2),

which we will conclude is not a theft offense.

Section 530.5(c)(2) states:
“Every person who, with the intent to defraud,
acquires or retains possession
of the personal identifying information .
• • of another person, and who has
previously been convicted of a violation of this
section, . . . shall be punished”
by imprisonment and/or a fine.
(Italics added.) The crime is a “wobbler,” in
that it can be punished “by imprisonment in
a county jail not to exceed one
year, or . . . by imprisonment pursuant to
subdivision (h) of Section 1170.”
(§ 530.5(c)(2).) Harrell contends that his
violations of this law must be
reclassified pursuant to Proposition 47 as
misdemeanors because they are
theft offenses, and there is no evidence that th
-e value of the personal
identifying information that Harrell
acquired or retained exceeded $950.
When we filed our prior opinion in this
case, courts disagreed about
whether a violation of section 530.5(c) i
is a theft offense that must be treated
as a misdemeanor when the value of the personal identifying information Is
not shown to exceed $950. (Compare People

v. Chatman (2019) 33

Cal.App.5th 60, 65-69 (Chatman)

rev. granted June 26, 2019, S255235 [a
conviction under section 530.5(c)(2) iis a
theft offense] with People v. Weir
(2019) 33 Cal.App;5th 868 (Weir)
’ rev. granted June 26, 2019, S255212 [a
violation of section 530.5(c) is a
nontheft offense].) Until the Supreme Court
resolved the conflict, we elected to follow

our division’s prior decision in
Chatman, reclassifyrng Harrell's crimes as misdemeanor thefts. The

9

Supreme Court has

now diiected us to reconsider

Jimenez.

our conclusion in light of

In Jimenez, supra, 9 Cal.5th 53, the defendant
tried on charges
that he committed two felony violations of section 530was
5
0, subdivision (a)
(section 530.5(a)), a closely related crime
' Sectlon 530.5(a) provides: “Every
person who wi fuUy obtains personal identifying information
■ ■ of another
Person, and uses that informatio
n for any unlawful purpose, including to
obtain, or attempt to obtain, credit,
goods, services, real property or medical
information without the
’’ fltal’
tin
that person, is guilty of a public offense
( ahcs added.) The prosecution presented
evidence that Mr. Jimenez
went into a
commercial check-cashing store
on two occasions and cashed a
check for
an amount under $950. Neither check had been issued by the
payor, nor did the payor give Jimenez
P- 59.) The jury found J

permission to cash them. (Jimenez, at

imenez guilty of both felony charges, but the trial
court reclassified the crimes as
shoplifting misdemeanors. Section 459.5
which was enacted pursuant to Proposition 47,
defines shoplifting as
“entering a
commercial establishment with intent to
commit larceny while
that establishment is
open during regular busin ess
hours, where the value of
the property that is taken or
rs 4,q ,
, ,
intended to be taken does not exceed”
$950.
(§ 459.5, subd. (a).) This statute also precludes
acts that can be charged as
as burglary or theft of the
same property. (Id.
at subd. (b).) The judgment reclassifying Jimenez’
s convictions as
misdemeanor shoplifting was affirmed
on appeal but reversed by
our
Supreme Court.
shoplifting from being charged

section 530 5( )h°ldS ^

^

information in violation of

530.5(a) cannot be reclassified as shoplifting because
is not a theft offense. (Jimenez, supra, 9 Cal.Sth atpp

10

section 530.5(a)
• 58-59.) Jimenez

outlines several

leasons that the crime is not a theft offense,
even though it is
sometimes referred to as “
identity theft.” First,
the statutory language does
not use the term “theft”
or contain requirements that
Central t0 the
of theft. (Jimenez, mora on i et.

the offense of misuse
can be
on with valid consent, using it for an
unlawful purpose, and returning it.”
(Ibid.) Simply stated
Section 530.5(a)
can be violated whether or
not the victim’s identifying information has been
stolen.

The

identity
ZZZT
^
nrity, not at unlawful taking of property.

at

(.Jimenez,

use of a person s

supra, 9 Cal. 5th. at
opment of this statute and its
many amendments
reflect legislative efforts to
address various « <
the initial mi
om
—harm that often goes
eyond the actual property obtained. > :>
on Public Safety, Analysis of Assem. Bill No (Id- at p- 64 [quoting Sen. Com.
2886 (2005-2006 Reg. Sess.) as
amended May 26, 2006].) A felony vioiation
of the statute hinges on the
seriousness of the crime anditsconsequences for the victim,
rather than the
‘ype or value of property involved
^
ei%e'C’ at P‘ 64’ citing Weir, supra, 33
Cal.App.5th atp. 875.)
And, section 530.5 appears in a
Penal Code chapter
entitled “ ‘False P
ersonation and Cheats,’ ” rather tha
n in the chapter
entitled « (Larceny.
(Jimenez, at p. 64.)
P- 64.) The historical devel

Finally, the new theft offense

of shoplifting is “ill suited to p
unish
misuse of identifying information”
because these two laws
are fundamentally
d«ere t. reflecting different legislative rationales.
(Jimenez, supra, 9
Cal.5th at p. 65.) The rationale for
misdemeanor shoplifting is that

11

culpability for an unlawful taking of property should reflect degrees of danger
that depend on the time of day, nature of the entry, and value of the p
roperty
involved. By contrast, section 530.5 “prohibits a person from ‘
acquiring,
retaining, or using information, rather than taking it,—itself a fair indicator
that the Legislature was
concerned with use, not theft. [Citation.] And on its
face, it addresses harms reaching well beyond theft, implicating issues of
privacy and control of personal data.” (Jimenez, at p. 65.)
In the present case, Harrell

was convicted under section 530(c) a
provision directed at unlawfully possessing (acquiring or retaining) personal
identifying information, unlike the Jimenez defendant who was convicted for
misusing such information. Contending that Jimenez does not preclude
reclassifying his offenses as thefts, Harrell argues that the Jimenez Court
limited its holding to section 530.5(a), and that the Court’s
reasoning does not
extend to section 530.5(c), which is
i a fundamentally different crime. We
disagree.
Jimenez compels the conclusion that

section 530.5(c) is not a theft
offense. Beginning with its statutory language, section 530.5(c) contains

no
reference to theft, nor do its elements align with a quintessential theft
offense. Like section 530.5(a), this provision
can be violated absent an intent
to commit theft and whether or not the victim’s information
was actually
stolen. Further, section 530.5(c) is an i
ntegial part of the statutory scheme
that targets social harms flowing from the misuse of a person's identity, as
opposed to the unlawful taking of property. Operating outside the law

of
theft, section 530.5 addresses unique concerns attendant to misuse of another
person's identity. Subdivisions (a) and (c) of this statute function
to achieve this purpose.

12

in tandem

Insisting that Jimenez does

not preclude reclassification of his crimes,
Harrell hangs his hat on two flawed arguments. First, Harrell argues that ’
Jimenez
530 5 fr
!
°ateg0rically
def“^nts convicted under
section
Harrefl I
t
^
Pr°P°Sltl°n 4" AS SUPP°rt
** view,
that a e

“T 63<X5’

W

530^»- which provides

of th T T
C°mmitS
theft’ 33 d6fined “ Secti“ I™* of Title 18
of the United States Code, is guilty of a public offense.”
But section 530.5(e)
is not at issue in this appeal, and Harrell’
S assumption that section 530.5(e)
is a theft offense d oes
not justify differentiating section 530.5(c) from section
530.5(a) in this regard.
. .
Under the relevant criteria outlined in Jimenez
1visions (a) and (c) of section 530.5 are both nontheft offenses
implemented by the Legislature as
part of a comprehensive solution to
problems arising from mi
misuse of another person’s identity.
Harrell’s second contention i
is that section 530.5(c) must be
characterized as a theft under the
reasoning of People Romanowski (2017)
2 Cal.5th 903 (.Romanowski). That
case considered the effect of Proposition
47 on a felony conviction for
section

rrr

484e(d) states: “Eveiy person who

usssssr'

n. Section

””
issuer’s consent, with the intent to
use it fraudulently
is guilty of grand theft.” (Italics added.) Concluding that
section 484e(d) is a theft offense under Pro
position 47, the Romanowski Court
found, “[ijnjust about
theft of access card
^S1Slat”e
^
(■Romanowski, at p. 908.)
nguage describes this cri
crime as a c grand theft, > a
and section 484e is located m
a chapter of the Penal Code entitled
For example, the statutory la

13

(( (

Larceny.'” (Md.) Furthermore, section 484e(d)
is defined “in the way the

Penal Code defines 'theft

because this statute
cannot be violated unless the
victim’s access card information is acquired or retained a (
without the
cardholder’s or issuer’s consent.
(.Romanowski, at p. 912.)
As the Jimenez court observed,
the same factors that indicate
section
484e(d) is a theft offense establish that s
ection 530.5(a) is not. (Jimenez,
supra, 9 Cal.4th at p. 65, 67.) This observ
ation applies as well to section
530.5(c), which also does
not use the term theft i
is not designated as a larceny
m the Penal Code, and is
not defined the way the Penal Code defines theft,
We acknowledge that s
ection 530.5(c), like section 484e(d)
criminalizes one
who “acquires or retains” i
information with fraudulent intent,
but observe
that section 530.5(c) d oes
not include the additional
requirement in section
484e(d) that this informati on
be acquired without
consent. Romanowski
understood “without
■ consent” as a “crucial element”
confirming “that theft
of access card information i
n is a theft’ crime in the way the Penal Code defines
‘theft.
(Jimenez, supra, 2 Cal.5th at p. 912.) Romanowski thus
reinforces
our conclusion that section 530.5(c) is
not subject to reclassificatio n as a
misdemeanor under the
reasoning of Jimenez.
i ))

5

disposition
The judgment is affirmed,

except that the section 667.5(b) sentence

enhancements are stricken.

14

tucher,

WE CONCUR:

STREETER, Acting P. J.

BROWN, J.

People v. Harrell (A156017)

15

J.

Court of Appeal, First Appellate District, Division Four - No. A156017
S259968
OURT
IN THE SUPREME COURT OF CALIB&RMME
IT*3 i i r®
D

En Banc

g U fc*=

JUN 1 7 2020

THE PEOPLE, Plaintiff and Respondent,

Jorge Navarrete Clerk
Deputy

v.
JOSHUA HARRELL, Defendant and Appellant.

The above-captioned matter is transferred to the Court of Appeal, First Appellate
District, Division Four, with directions to vacate its decision and to reconsider the cause
in light of People v. Jimenez (2020) 9 Cal.5th 53. (Cal. Rules of Court, rule 8.528(d).)

Cantil-Sakauve
Chief Justice
Chin
Associate Justice
Corrigan
Associate Justice
Liu
Associate Justice
Cuellar
Associate Justice
Kruger
Associate Justice
Groban
Associate Justice

Coiirl of Appeal. First Appellate District
Chillies D. Johnson, Clerk/Execuiive Officer
Electronically FILED on 1 1/27/2019 by M. Garcia. Deputy CleT

Filed 11/27/2019

NOT TO BE PUBLISHED IN OFFICIAL REPORTS

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION FOUR
THE PEOPLE,
Plaintiff and Respondent,

A156017

v.

(Solano County
Super. Ct. No. FCR336781)

JOSHUA HARRELL,
Defendant and Appellant.

A jury convicted Joshua Harrell of three felony counts of fraudulent possession of
the personal identification of another after having been previously convicted of this
offense. (Pen. Code, § 530.5, subd. (c)(2) (section 530.5(c)(2)).1 The trial court found
that Harrell suffered a prior strike conviction and four prior prison terms, and sentenced
him to an aggregate term of 12 years and 8 months in prison.
On appeal, Harrell contends: (1) the judgment must be reversed because of the
erroneous denial of his motion to suppress evidence; (2) his convictions must be
reclassified as misdemeanors under section 490.2; and (3) the four prior prison term
enhancements must be stricken due to an amendment to section 667.5, subdivision (b)
(section 667.5(b)) that will become effective in January 2020. We reject Harrell’s first
contention but agree that his convictions must be reclassified as misdemeanors and that
the section 667.5(b) enhancements must be stricken.

Statutory references are to the Penal Code unless another statute is cited.
l

mix C

BACKGROUND
In March 2018, Harrell was charged by felony complaint with three counts of
violating section 530.5(c)(2) on November 24, 2017. In April 2018, Harrell filed a
motion to suppress evidence pursuant to section 1538.5, arguing that he was subjected to
an unlawful detention, search and arrest. The motion was heard concurrently with the
preliminary hearing on June 18, 2018.
At the June 18 hearing, Fairfield Police Officer Kevin Anderson testified that he
encountered Harrell shortly before 3:00 a.m. on November 24, 2017. Anderson was
patrolling a residential neighborhood when he noticed a gold BMW parked on the street
that did not have license plates, which was a violation of the Vehicle Code. He
approached the car so he could obtain the VIN number and noticed through the windows
that Harrell was asleep in the driver’s seat and there “ was a lot of miscellaneous property
spread out throughout the car.” Anderson attempted to wake Harrell by speaking through
the window, which was rolled down about five inches, and by knocking on the window
with his flashlight. When Harrell finally woke up, Anderson identified himself as police
and asked Harrell to roll the window down or open the door so it would be easier to talk.
Harrell did not comply with that request or with the officer’s request to see identification.
He told Anderson that he did not want to talk and did not want to get out of the car.
Anderson then asked for Harrell’s name and date of birth, which Harrell provided.
Anderson testified that he used the information provided by Harrell to run a record
check through Fairfield Police Dispatch and was advised that Harrell was on Post Release
Community Supervision (PRCS). Accordingly, Anderson “removed [Harrell] from the
car to conduct a PRCS compliance check of the vehicle.” Anderson found notebooks and
paperwork on the seats and floorboard of the car. The notebooks contained personal
identifying information for approximately 20 people. After completing the car search,
Anderson read Harrell his rights and placed him under arrest. Subsequently, Anderson
contacted several people who were referenced in the notebooks found in the BMW and
they reported that Harrell did not have permission to have their personal information.

2

After Anderson completed his testimony, the People submitted documentary
evidence regarding Harrell’s identity theft prior and the magistrate took judicial notice of
the case in which Harrell had been placed on PRCS. The defense did not present
evidence. But, during argument, defense counsel argued that the People failed to carry
their burden of producing independent evidence establishing that Harrell was on PRCS or
subject to a search condition. Defense counsel further argued that the detention was
unlawful in any event because Harrell was not doing anything wrong and he was not
obligated to engage with the officer even if he was on PRCS. Finally, defense counsel
argued that the search of Harrell’s phone was not justified because the People did not
produce evidence regarding the scope of the PRCS search clause.
The magistrate denied Harrell’s suppression motion finding: “The initial contact
was supported by reasonable suspicion. The arrest was supported by probable
cause.
The detention was not unduly prolonged. The motion to suppress is denied.” The
magistrate also found sufficient evidence to support the identity theft charges and held
Harrell to answer on the complaint.
In the superior court, Harrell filed a renewed motion to suppress evidence. On
August 13, 2018, the court denied Harrell’s motion, finding a sufficient factual basis for
the magistrate’s conclusions. Thereafter, the case proceeded to trial, where the jury
found Harrell guilty of three felony counts of acquiring or keeping the personal
identifying information of K.H., T.S. and C.W. after having previously suffered a
conviction for this same crime. (§ 530.5(c)(2).)
DISCUSSION
I* The Denial of Harrell’s Suppression Motion Was Not E rror
Harrell contends the judgment must be reversed because illegally seized evidence
was used to secure his convictions.
A. Standard and Scope of Review
A criminal defendant may “challenge the reasonableness of a search or seizure by
making a motion to suppress at the preliminary hearing. [Citation.] If the defendant is
unsuccessful at the preliminary hearing, he or she may raise the search and seizure matter
' 3

before the superior court under the standards governing a section 995 motion.” (People
v. McDonald (2006) 137 Cal.App.4th 521, 528-529 (McDonald).) In that situation “the
superior court s role is similar to that of an appellate court reviewing the sufficiency of
the evidence to sustain a judgment.” (Id. at p. 529.) On appeal, we too review the
determination of the magistrate at the preliminary hearing. (Ibid.) We accept all factual
findings supported by substantial evidence. Then we exercise independent judgment to
determine whether the search or seizure was reasonable on the facts found by the
magistrate. (Ibid.\ see also People v. Romeo (2015) 240 Cal.App.4th 931, 940.)
B. The Detention and Vehicle Search Were Lawful
We begin with Harrell’s contention that his detention was unjustified. “A police
officer may detain a person if the officer has a reasonable articulable suspicion that the
detainee is or is about to be engaged in criminal activity.” (McDonald, supra, 137
Cal.App.4th at p. 530.) “[Wjhen there is articulable and reasonable suspicion that a
motorist is unlicensed, that an automobile is not registered, or that either the vehicle or an
occupant is otherwise subject to seizure for violation of law, the vehicle may be stopped
and the driver detained in order to check his or her driver’s license and the vehicle’s
registration.” (People v. Saunders (2006) 38 Cal.4th 1129, 1135 (Saunders).)
Accepting, for purposes of appeal, Harrell’s contention that he was detained as
soon as Officer Anderson woke him and asked for identification, the record shows that
Officer Anderson had an articulable reasonable suspicion to detain Harrell because he
was sleeping m a car that did not have license plates. “Absence of license plates provides
reasonable suspicion that the driver is violating the law. Unless there are other
circumstances that dispel that suspicion, that resolve any ambiguities in the legal status of
the vehicle’s conformance with applicable laws, the officer may stop the vehicle and
investigate without violating the driver’s Fourth Amendment rights.” (People v. Dotson
(2009) 179 Cal.App.4th 1045, 1052; see also Saunders, supra, 38 Cal.4th atp. 1136.)
Here, the officer’s initial interaction with Harrell revealed circumstances that reinforced
an objective suspicion that Harrell was engaged in unlawful activity because Harrell
declined to provide identification demonstrating his lawful possession of the BMW.
4

Harrell also disputes the magistrate’s conclusion that the vehicle search was
lawful. However, substantial evidence that Officer Anderson knew Harrell was on PROS
justifies the vehicle search. “[A]n individual who has been released from custody under
PROS is subject to search (and detention incident thereto) so long as the officer knows
the individual is on PROS. PROS, like parole, involves the post-incarceration
supervision of individuals whose crimes were serious enough to result in a prison
sentence and thereby implicates important public safety concerns, as well as the state’s
c u t

overwhelming

5 9? ?

•

interest in supervising released inmates.” (People v. Douglas

(2015) 240 Cal.App.4th 855, 865 {Douglas))
In this case, before Officer Anderson ordered Harrell to exit the vehicle, he was
accurately informed by the police department’s dispatch officer that Harrell was on PRCS
until 2020. Further, contrary to Harrell’s lower court argument, the precise terms of
Harrell’s PRCS release are not relevant to our evaluation of the propriety of the search.
“It is not necessary for the officer to recite or for the People to prove the precise terms of
release, for the search condition is imposed by law, not by consent. As in the case of a
parole search, an officer’s knowledge that the individual is on PRCS is equivalent to
knowledge that he or she is subject to a search condition.” {Douglas, supra, 240
Cal.App.4th at p. 865.)
Harrell contends that the search executed by Anderson was nevertheless unlawful
because it was conducted to harass him. The Legislature has explicitly stated that PRCS
status does not “authorize law enforcement officers to conduct searches for the sole
purpose of harassment.” (§ 3067, subd. (d).) Despite the fact that the law does not
require particularized suspicion to conduct a search pursuant to a properly imposed
search condition, such a search may be unreasonable if it is conducted

;

too often, or at

an unreasonable hour, or if it [is] unreasonably prolonged or for other reasons
establishing arbitrary or oppressive conduct by the searching officer.

? ?5

{People v. Reyes

(1998) 19 Cal.4th 743, 753-754 [addressing a parole search condition].)
Here, the record contains substantial evidence that Officer Anderson approached
the BMW because of a Vehicle Code violation, that Harrell declined to provide
5

information establishing his right to possess the unlicensed vehicle in which he was
sleeping, and that Officer Anderson conducted a search of the vehicle because he was
informed that Harrell was on PRCS and subject to a statutory search condition. These
facts constitute obj ective justification for the officer’s conduct and establish that the
search was not conducted for the puipose of harassment.
II. Harrell’s Convictions Must Be Reclassified as Misdemeanors
Harrell’s felony convictions were for violating section 530.5(c)(2), which states:
Every person who, with the intent to defraud, acquires or retains possession of the
personal identifying information ... of another person, and who has previously been
convicted of a violation of this section, upon conviction therefor shall be punished by a
fine, by imprisonment in a county jail not to exceed one year, or by both a fine and
imprisonment, or by imprisonment pursuant to subdivision (h) of Section 1170.”
Harrell contends these felonies must be reclassified as misdemeanors pursuant to
Proposition 47 because they are theft offenses and there is no evidence that the value of
the personal identifying information that Harrell acquired or retained exceeded $950.
“Approved by the voters in 2014, Proposition 47 (the ‘Safe Neighborhoods and
Schools Act’) reduced the punishment for certain theft- and drug-related offenses,
making them punishable as misdemeanors rather than felonies. To that end, Proposition
47 amended or added several statutory provisions, including new . . . section 490.2,
which provides that ‘obtaining any property by theft’ is petty theft and is to be punished
as a misdemeanor if the value of the property taken is $950 or less.” (.People v. Page
(2017) 3 Cal.5th 11 75, 1179; see also People v. Romanowski (2017) 2 Cal.5th 903.)
There is disagreement in the appellate courts about whether a violation of section
530.5(c) is a theft offense that must be treated as a misdemeanor when the value of the
personal identifying information that the defendant obtained did not exceed $950.
(Compare People v. Chatman (2019) 33 Cal.App.5th 60, 65—69 {Chatman), rev. granted
June 26, 2019, S255235 [a conviction under section 530.5(c)(2) is a theft offense] with
People v. Weir (201 9) 33 Cal.App.5th 868, rev. granted June 26, 2019, S255212 [a
violation of section 530.5(c) is a nontheft offense].)
6

Until the Supreme Court resolves the conflict, the position taken by this division
has been set forth in People v. Chatman, which we follow here. Because the record
contains no evidence that the personal identifying information Harrell acquired or
retained was valued at more than $950, each of his offenses must be reduced to
misdemeanors under section 490.2. (Chatman, supra, 33 Cal.App.5th at p. 69.)
III. The Prior Prison Term Sentence Enhancements Must Be Stricken
As noted, the trial court found that Harrell suffered four prior prison terms within
the meaning of section 667.5(b), which currently states that when a defendant is
convicted of a felony and sentenced to prison, “in addition and consecutive to any other
sentence therefor, the court shall impose a one-year term for each prior separate prison
term or county jail term imposed under subdivision (h) of Section 1170 or when sentence
is not suspended for any felony . . . .”
Effective January 1, 2020, section 667.5(b) will enhance punishment only for prior
prison terms served for a sexually violent offense as defined in subdivision (b) of
Section 6600 of the Welfare and Institutions Code . . . .” Here, none of Harrell’s prior
prison terms were for sexually violent offenses. Therefore, if he had been sentenced after
January 2020, the court could not have imposed the four one-year sentence enhancements
for Harrell s prior prison terms. Harrell contends the statutory amendment to section
667.5(b) applies retroactively to him because it will go into effect before the judgment in
this case will become final. (Citing In Re Estrada (1965) 63 Cal.2d 740.)
The People contend that Harrell’s claim that he is entitled to the benefit of
amended section 667.5(b) is not ripe for review until the amendment actually goes into
effect m January 2020. But they otherwise concede that once the amendment goes into
effect, “it will apply retroactively to defendants whose judgments are not yet final,”
including Harrell.
[F]°r the purpose of determining retroactive application of an amendment to a
criminal statute, a judgment is not final until the time for petitioning for a writ of
certiorari in the United States Supreme Court has passed.” (.People v. Vieira (2005) 35
Cal.4th 264, 306.) Because the record shows that the judgment in this case will not yet
7

be final on January 1, 2020—indeed, we must remand for resentencing in light of
Proposition 47’s effect on this case—we reject the People’s contention that this issue is
not ripe for review. As the People concede, under the Estrada rule Harrell is entitled to
the benefit of amended section 667.5(b), which means that the sentence enhancements
previously imposed pursuant to this statute must be stricken. We note that section
667.5(b), even in its current form is also inapplicable once the felonies on which Harrell
was convicted are reduced to misdemeanors.
DISPOSITION
Harrell’s convictions are reduced to misdemeanor violations of section 490.2,
subdivision (a), and this case is remanded for resentencing consistent with this opinion.
The judgment is otherwise affirmed.

8

'•5

TUCHER, J.
WE CONCUR:

STREETER, Acting P. J.

BROWN, J.

\

•V-

People v. Harrell (A 156017)

9

